                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 14-01322-215




                Healthcare Inspection 


             Quality of Care and 

        Staff Safety Concerns at the 

        Huntsville Community Based 

              Outpatient Clinic 

            Huntsville, Alabama 





July 17, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                                    Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC



                                 Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations concerning the quality of care provided
by a primary care provider (PCP) and staff safety at the community based outpatient
clinic (CBOC) located in Huntsville, AL. The CBOC is associated with the Birmingham
VA Medical Center (facility).

We substantiated the PCP did not consistently document opioid medication
management, did not consistently document and respond to patients’ abnormal test
results, and on one occasion, entered a derogatory comment in the electronic health
record (EHR).

We reviewed 9 EHRs of the 10 patients referred to OIG by the complainant as
examples of alleged inappropriate care provided by a Huntsville CBOC PCP. We were
unable to identify 1 of the 10 patients because the complainant provided limited
identifying information, and we were unable to identify the patient through interviews
and record reviews. We did not substantiate that the PCP had made multiple
medication errors, failed to respond to health care concerns appropriately, failed to refer
a homicidal/suicidal patient, forced patients to receive vaccinations, and treated patients
preferentially causing them to request a transfer of care to another PCP.

We did not substantiate that the PCP inappropriately instructed staff to shred patients’
non-VA medical documents; however, we found that staff did not consistently follow
facility policy for the management of non-VA medical records. We did not substantiate
that the PCP yelled and became upset when a CBOC staff cautioned the PCP to not
perform a procedure that was not approved for the CBOC setting. However, we found
that the PCP had performed other CBOC-setting approved procedures for which he/she
was not privileged to perform.

We did not substantiate that the facility did not respond to staff concerns about quality of
care or safety. We substantiated that the CBOC did not initially have a mental health
(MH) emergency standard operating procedure (SOP), and once developed, the SOP
did not include all actions staff might take when addressing a MH emergency. We
substantiated that the CBOC had non-functioning panic alarms.

During our inspection, we noted that the facility did not have a pain management policy
as required and did not complete mandatory EHR quarterly quality reviews for
outpatient programs.

We recommended that the Facility Director ensures that (1) documentation of treatment
with opioid medications meets Veterans Health Administration (VHA) requirements,
(2) staff consistently document responses to abnormal test results, (3) patients are
notified of test results within the defined timeframe and that notification is documented
in accordance with VHA requirements, (4) staff adhere to the facility policy for the
management of non-VA medical records, (5) CBOC provider privileges are in
accordance with VHA requirements, (6) MH SOP is updated to incorporate all


VA Office of Inspector General                                                                   i
                                 Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


procedures available for management of a MH emergency at the CBOC, (7) CBOC
panic alarms are functional, (8) a pain management policy is implemented, and (9) the
quality of entries in the EHR is reviewed at least quarterly.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 12–16 for the Directors’ comments.) We will follow up on the planned actions
until they are completed.




                                                      JOHN D. DAIGH, JR., M.D.
                                                     Assistant Inspector General for
                                                       Healthcare Inspections




VA Office of Inspector General                                                                ii
                                           Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


                                              Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations concerning quality of care and staff
safety at the community based outpatient clinic (CBOC) located in Huntsville, AL.

                                          Background 

Huntsville CBOC. The CBOC is associated with the Birmingham VA Medical Center
(facility), which is part of Veterans Integrated Service Network (VISN) 7, VA Southeast
Network. It is located 100 miles from the facility and is the largest of the facility’s nine
CBOCs. During FY 2013, CBOC staff provided primary care and mental health (MH)
services to 7,261 unique patients.

Pain Management. Opioids are narcotic medications that relieve moderate to severe
pain; common medications include hydrocodone, oxycodone, and morphine.1 The safe
and effective use of opioid analgesics for the management of pain, particularly complex
chronic pain conditions, requires special attention to personal and public health risks. A
written opioid pain care agreement documents provider-patient discussion of potential
risks and benefits of opioids, provider and patient responsibilities related to opioid use,
and the parameters for continued use of opioids.2 These written agreements are tools
for educating patients and providers about the opioid treatment plan and documenting
the patient's agreement to participate.3

Management of Tests Results. The Veterans Health Administration (VHA) requires
that ordering practitioners document treatment actions in the patient’s electronic health
record (EHR) in response to critical, emergent, or abnormal test results.4 VHA also
requires that outpatient test results are communicated to patients no later than
14 calendar days from the date on which the results are available to the ordering
practitioner. Significant abnormalities may require review and communication in shorter
timeframes with 14 days representing the outer acceptable limit. For abnormalities that
require immediate attention, the communication should occur in the timeframe that
minimizes risk to the patient.5

Allegations. The OIG received an anonymous complaint concerning the quality of care
provided by a CBOC primary care provider (PCP). The allegations concerning the
quality of care are summarized below.




1
  National Institute on Drug Abuse. “Prescription Drugs.” http://www.drugabuse.gov/publications/research-
reports/prescription-drugs/opioids/what-are-opioids. Accessed March 28, 2014. 

2
  VHA Directive 2009-053, Pain Management, October 28, 2009.

3
  VA/DoD Clinical Practice Guideline for Management of Opioid Therapy for Chronic Pain, Version 2.0, 2010.

4
  VHA Directive 2009-019, Ordering and Reporting Test Results, March 24, 2009. 

5
  VHA Directive 2009-019. 





VA Office of Inspector General                                                                                1
                                          Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC

A primary care provider:

    	 Did not consistently document patient assessments when                                  prescribing
       medications for chronic pain and made multiple medication errors.
    	 Failed to take appropriate action in response to patients’ test results, failed to
       address patients’ health concerns appropriately, failed to refer a
       homicidal/suicidal patient, forced patients to receive influenza vaccinations, and
       treated patients preferentially.
    	 Entered inappropriate comments in a patient’s EHR and inappropriately
       instructed staff to shred documents pertaining to non-VA care.
    	 Wanted to perform a procedure that was outside the scope of the CBOC’s
       services and yelled at staff when questioned.

In the report, we discuss the allegations pertaining to the PCP according to the specific
patient care concerns identified by the complainant (see below Issues 1–4).

The complainant also alleged that facility leaders and CBOC managers did not respond
to reports of concerns about quality of care and staff safety, that the CBOC is not
properly staffed, and that staff have to work overtime and do not receive appropriate
compensation.

During the course of our inspection, we received allegations that the CBOC had no MH
standard operating procedures (SOP) for emergencies and that panic alarms were not
working.

                              Scope and Methodology 

We conducted a site visit January 13–15, 2014, and interviewed the Facility Director,
Associate Chief of Staff of Primary Care, Director of Primary Care, Director of Quality
Management, Nurse Manager of CBOCs, Chief of Police, and Suicide Prevention
Coordinator.    We also interviewed Business Management Service (BMS) staff,
pharmacy staff, and CBOC administrative and clinical staff.

To evaluate the PCP’s documentation of pain medication management, we reviewed
the 205 prescriptions for oral or transdermal opioid medications (fentanyl, hydrocodone,
methadone, morphine, and oxycodone6) that the PCP ordered July–September, 2013.
We identified 14 patients who received oxycodone in preparations greater than
10 milligrams (mg) and/or any opioid in a quantity greater than 180 tablets. We
considered these patients to be at higher risk for adverse medication effects and/or
medication diversion than patients receiving lower doses or quantities. We then
reviewed the 14 patients’ EHRs for evidence of an in-person and/or telephone


6
 Prescriptions for acetaminophen/codeine and morphine 15 mg were not included in this review. Hydromorphone
and meperidine were not prescribed.




VA Office of Inspector General                                                                                2
                                            Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC

encounter between a PCP and the patient during the week when an opioid was
prescribed and in the prior 90 days.7

The complainant alleged instances of poor care involving 10 patients but provided only
limited identification information. Through interviews and document review, we
identified 9 of the 10 patients. We reviewed the EHRs of the identified patients. In this
report, we refer to these patients as Patients 1–9.

We reviewed facility policies, VA and VHA handbooks and directives, credentialing and
privileging information, and other relevant documents.

Allegations related to work schedules, staffing, overtime, and compensation were
outside the scope of this review.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




7
 VA/DoD Clinical Practice Guideline for Management of Opioid Therapy for Chronic Pain, Version 2.0, 2010.
“Patients who are on a stable dose of medication without evidence of adverse effects or adherence problems may be
followed every 1–6 months.” We selected the 90-day timeframe because patients at increased risk for adverse
medication effects and/or medication diversion would generally require more frequent follow-up than every
6 months.




VA Office of Inspector General                                                                                  3
                                          Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC



                                   Inspection Results 

Issue 1: Opioid Medication Management

Documentation

We substantiated that the PCP did not consistently document patient assessments
when prescribing medications for chronic pain. VHA requires that when opioid
analgesics are prescribed for regular use, providers periodically document treatment
effectiveness, including pain control, function, and quality of life.8

To evaluate the PCP’s opioid prescription documentation, we reviewed EHR
documentation for the identified 14 high-risk patients for a 90-day period. Despite
recurring prescriptions for opioids, three patients had no documented encounters and
five patients had encounters with no documentation of an assessment of the
effectiveness of the opioid medication. Three of the eight patients with absent pain
assessments were also prescribed benzodiazepines, medications associated with an
increased risk of morbidity and mortality when taken in combination with opioids.9

Medication Errors

We did not substantiate that the PCP made multiple medication errors. The
complainant provided no specific patient information and the pharmacy staff stated the
PCP was not an outlier among peers. The PCP’s supervising physician reported that
he had not received complaints of multiple medication errors.

Issue 2: Quality of Care

Management of Tests Results

We substantiated that the PCP did not consistently document treatment actions in
response to abnormal test results, and did not consistently communicate the abnormal
test results to patients (Patients 1–4).

Patient 1 had an abnormal platelet test result. In early December 2012, the patient’s
platelet count was 88,000 per cubic millimeter (mm3) (normal, greater than 150,000).
We found no documentation in the EHR that the patient was notified of the abnormal
result within the required 14 days. Additionally, the PCP did not document discussing
the abnormal platelet count with the patient when the patient returned for a clinic
appointment in January 2013.

Patient 2 was a homebound individual with diabetes and a recent history of
osteomyelitis (infection in the bone) and bacteremia (bacteria in the bloodstream). In

8
 VHA Directive 2009-053. 

9
 Gudin JA, Mogali S, Jones JD, Comer SD. Risks, Management, and Monitoring of Combination Opioid, 

Benzodiazepines, and/or Alcohol Use. Postgrad Med. 2013;125:115-30.





VA Office of Inspector General                                                                        4
                                              Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


May 2013, staff documented in the patient’s EHR that a white blood cell (WBC) test
result of 13,280 per mm3 (normal, less than 11,000) had been received from a home
health agency. The PCP did not document a response to this abnormal test result.

Patient 3 had seven abnormal WBC test results between December 27, 2011 and July
24, 2013, ranging from 11,500 to 25,100 per mm3. The PCP did not consistently
document acknowledgement of or response to the abnormal results.

Patient 4 had abnormal platelet test results between June 2012 and January 2013, with
platelet counts ranging from 96,000 to 110,000 per mm3. During this time period, none
of the PCP’s five Huntsville Clinic notes indicated a response to the abnormal test
results. In early August 2013, staff documented that the facility’s Cardiology Service
contacted the CBOC staff about the patient’s plan of care for the abnormal test results.
The PCP subsequently submitted a consult request to hematology.

PCP’s Orders

We did not substantiate the allegations that the PCP would not order a chest x-ray for a
patient (Patient 5) and would not order transportation to the local emergency
department (ED) for another patient (Patient 6), who had a suspected deep vein
thrombosis (DVT).10

Patient 5 had a history of asthma and sinusitis. During a visit to the CBOC in
September 2013, the patient was described as having feverishness, cough, and chest
pain. The PCP’s assessment was that the patient had a viral syndrome with pleurisy.11
Though not mentioned in the PCP’s progress note, a chest x-ray was ordered to “R/O
[rule-out] pneumonia.”

Patient 6 had a history of DVTs and was being treated with warfarin to prevent further
blood clots. In August 2013, the PCP documented that the patient had right leg pain for
about a week which had worsened in the past 3 days. The PCP documented that the
patient needed an ultrasound test at the local hospital to rule out a DVT. We were able
to confirm that the patient went to the ED of a private medical center located one block
from the CBOC on the same day as the visit to the CBOC but found no discussion in the
EHR regarding how the patient was transported to the local ED.

MH Assessment

The complainant alleged that the PCP failed to document and write a consult for a
patient who verbalized homicidal and suicidal thoughts, but no specific patient
information was provided. The Suicide Prevention Coordinator reported no related
incident involving the PCP.

10
   A deep vein thrombosis is a blood clot that forms in deep rather than superficial veins, commonly, in the large

veins in the lower leg and thigh. 

11
   Pleurisy is inflammation of the lining of the lungs and chest that leads to chest pain when a breath or cough 

occurs. 





VA Office of Inspector General                                                                                        5
                                           Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


Influenza Vaccinations

We did not substantiate that the PCP forced patients to receive influenza vaccinations.
The complainant provided no specific patient information.

VHA policy follows Centers for Disease Control and Prevention guidelines
recommending routine annual influenza vaccinations.12 Some staff reported that the
PCP pressured patients to receive the influenza vaccinations; however, facility leaders
stated that they expected all health care staff to encourage immunizations. The Patient
Advocate Tracking System (PATS)13 data did not contain complaints specific to
immunizations.

Preferential Treatment

We did not substantiate that the PCP treated patients according to political beliefs, race,
or socio-economic status. The complainant provided no specific information.

We reviewed the number of the CBOC patients requesting a transfer to a different
provider. The PCP’s rate of requests to transfer, from November 28, 2012 to
January 6, 2014, was 4.23 patients per month. The rate of requests to transfer for the
other providers in the CBOC ranged from 0.6 to 1.54 patients per month. We could not
correlate the PCP’s rate of patients requesting transfers to complaints of preferential
treatment or patient satisfaction in general. Some CBOC staff reported they perceived
the PCP treated patients differently, especially with regard to socio-economic status;
however, others told us the PCP treated patients fairly and without regard to
socio-economic status. The Patient Advocate had not recorded any complaints related
to preferential treatment in PATS, and the PCP’s FY 2013 patient satisfaction data
revealed 99.4 percent of the patients who responded to the satisfaction survey were
satisfied with their care. The PCP’s satisfaction score was comparable to other CBOC
providers.

Issue 3: Documentation Processes

Inappropriate Documentation

We substantiated that the PCP documented in a patient’s EHR (patient 7) that the
patient was “crazy.” VHA policy prohibits derogatory or critical comments in the health
record.14

Patient 7 had a history of stroke and schizophrenia. The patient also had a history of a
benign liver hemangioma15 and had a computed tomography (CT) scan of the abdomen
in October 2008. In July 2013, the PCP wrote that the patient “has hardness on his

12
   VHA Directive 2013-004, Prevention and Control of Seasonal Influenza with Vaccines, February 22, 2013.
13
   PATS is a program that tracks patient complaints and compliments at each medical center.
14
   VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
15
   A hemangioma is a tangle of blood vessels and is noncancerous.




VA Office of Inspector General                                                                              6
                                               Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


right side and wants a CT of abd [abdomen] and he is crazy and bubbling about
psychotic delusions about his health that make no sense.”

Scanning and Shredding Medical Documents

We did not substantiate that the PCP inappropriately instructed staff to shred patients’
non-VA medical documents. However, we found that staff did not consistently follow
facility policy for the management of non-VA medical documents.

Facility policy specifies that documents received from non-VA health care organizations
where the facility purchased services do not require review by a provider prior to
scanning. These documents are to be routinely scanned by Health Information
Management Section (HIMS) staff for inclusion in the EHR.16 All other non-VA
documents are to be sent to a provider for determination of clinical pertinence. After a
determination is made, documents are sent to HIMS with a cover sheet signed by the
provider and then scanned or shredded as directed.17

We reviewed the EHRs of patients 2 and 8 who had received facility-purchased non-VA
care. The CBOC staff reported receipt of the patients’ medical documentation from
non-VA facilities. We found scanned copies of the documents in the patients’ EHR.

The BMS staff confirmed that its scanning section did not consistently receive the cover
letter with documents to be scanned into the EHR, as required by facility policy. The
lack of a consistent process of using this cover letter may have led to staff confusion as
to the disposition of non-VA medical documents.

Issue 4: CBOC Privileges

Staff stated that the PCP expressed the desire to perform a procedure on patient 9 at
the CBOC for which the PCP was not privileged to perform and that was outside the
scope of the CBOC’s services. The PCP did not perform the procedure. We did not
substantiate that the PCP yelled and became upset when a CBOC staff cautioned the
PCP to not perform the procedure.

VHA policy requires that providers’ clinical privileges are accurate and detailed and that
providers perform only those procedures for which they have privileges.18 VHA also
requires that privileges be provider- and setting-specific.19

We reviewed the PCP’s CBOC privileges and noted approval for one procedure,
arthrocentesis.20 We reviewed the EHRs of two patients referred to us during interviews

16
   Medical Center Memorandum 136-04, Document Scanning/Document Removal in the Computerized Patient

Record System, March 13, 2013.

17
   Medical Center Memorandum 136-04.

18
   VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012. 

19
   VHA Handbook 1100.19. 

20
   An arthrocentesis involves the use of a syringe to collect synovial fluid from a joint capsule. Arthrocentesis is an 

approved procedure for this CBOC.





VA Office of Inspector General                                                                                         7
                                          Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


and found the PCP had performed skin biopsies and a skin tag removal. Although
these procedures were within the scope of services offered at the CBOC, the PCP was
not privileged to perform them.

Issue 5: Staff Concerns and Facility Leadership Responsiveness

Staff Quality of Care Concerns

We substantiated that CBOC staff had reported to facility leaders their concerns about
the quality of care the PCP provided; however, we did not substantiate that facility
leaders did not respond to the concerns. We found that facility leaders reviewed the
staff’s quality of care concerns in July 2013 and addressed the concerns with the PCP
and CBOC staff.

Safety Concerns

We substantiated that CBOC staff had notified facility leaders about concerns of staff
safety; however, we did not substantiate that facility leaders did not respond to the staff
safety concerns.

VHA requires that each CBOC have a local policy or SOP defining how medical and MH
emergencies are handled.21 On August 7, 2013, CBOC staff sent an email to facility
leaders voicing workplace safety concerns and the lack of a MH emergency policy. On
August 8, the facility’s Chief of Police completed a safety and security assessment that
included findings and recommendations.

In response to the report, facility staff assessed the CBOC’s check-in work stations to
determine if protective barriers and mirrors could be installed in the waiting area to allow
staff the ability to view the CBOC entrance. At the time of our review, the facility was
negotiating with the owner of the building to install window tint on a back door to ensure
patient privacy.

Issue 6: Additional Findings

CBOC MH Emergency Policy

We substantiated the allegation we received on-site that the CBOC did not previously
have a MH emergency policy that defined MH SOP as required by VHA.22 The CBOC
staff reported the lack of a MH emergency policy in the August 2013 email addressed to
facility leaders.

On November 29, 2013, the facility implemented a MH emergency SOP for the CBOC.23
The SOP instructs CBOC primary care staff to contact Primary Care MH Integration

21
   VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 

22
   VHA Handbook 1006.1. 

23
   SOP 521-116-01, Management of Mental Health Emergencies, November 29, 2013.





VA Office of Inspector General                                                                        8
                                            Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


staff to assess MH emergencies. CBOC staff also stated they would use the panic
alarm system and call 911 during a MH emergency. These responses to a MH
emergency were not reflected in the SOP.

Panic Alarms

We substantiated the allegation received on-site that panic alarms were not working.
VHA requires that appropriate physical security precautions and equipment are
implemented, used, and tested in the facility, and The Joint Commission requires that
equipment is in good repair.24 The CBOC uses a computer keyboard activated panic
alarm system, and the alarm can be activated from multiple computer stations. Facility
documents showed that not all the panic alarm stations were functional.
Non-functioning panic alarms potentially compromise staff safety.

Pain Management Policy

Although not an allegation, we found the facility did not have a local pain management
policy. VHA requires that all facilities within the VISN establish and implement current
pain management policies.25

EHR Quarterly Quality Review

During the course of this review, we found the facility did not complete EHR quarterly
quality reviews for outpatient programs as required.26

                                           Conclusions 

We substantiated the PCP did not consistently document opioid medication
management, did not consistently document and respond to patients’ abnormal test
results, and on one occasion, entered a derogatory comment in the EHR.

We reviewed 9 EHRs of the 10 patients referred to OIG by the complainant as
examples of alleged inappropriate care provided by a Huntsville CBOC PCP. We were
unable to identify 1 of the 10 patients because the complainant provided limited
identifying information, and we were unable to identify the patient through interviews
and record reviews. We did not substantiate that the PCP had made multiple
medication errors, failed to respond to health care concerns appropriately, failed to refer
a homicidal/suicidal patient, forced patients to receive vaccinations, and treated patients
preferentially causing them to request a transfer of care to another PCP.

We did not substantiate that the PCP inappropriately instructed staff to shred patients’
non-VA medical documents; however, we found that staff did not consistently follow

24
   VHA Directive 2012-026, Sexual Assaults and Other Defined Public Safety Incidents in Veterans Health

Administration (VHA) Facilities, September 27, 2012.

25
   VHA Directive 2009-053. 

26
   VHA Handbook 1907.01. 





VA Office of Inspector General                                                                             9
                                    Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


facility policy for the management of non-VA medical records. We did not substantiate
that the PCP yelled and became upset when a CBOC staff cautioned the PCP to not
perform a procedure that was not approved for the CBOC setting. However, we found
that the PCP had performed other CBOC-setting approved procedures for which he/she
was not privileged to perform.

We did not substantiate that the facility did not respond to staff concerns about quality of
care or safety. We substantiated that the CBOC did not initially have a MH emergency
SOP, and once developed, the SOP did not include all actions staff might take when
addressing a MH emergency. We substantiated that the CBOC had non-functioning
panic alarms.

During our inspection, we noted that the facility did not have a pain management policy
as required and did not complete mandatory EHR quarterly quality reviews for
outpatient programs.

                                 Recommendations 

Recommendation 1. We recommended that the Facility Director ensures that
documentation of treatment with opioid medications meets Veterans Health
Administration requirements.

Recommendation 2. We recommended that the Facility Director ensures that staff
consistently document responses to abnormal test results.

Recommendation 3. We recommended that the Facility Director ensures that patients
are notified of test results within the defined timeframe and that notification is
documented in accordance with Veterans Health Administration requirements.

Recommendation 4. We recommended that the Facility Director ensures that staff
adhere to the facility policy for the management of non-VA medical records.

Recommendation 5. We recommended that the Facility Director ensures that
Community Based Outpatient Clinic provider privileges are in accordance with Veterans
Health Administration requirements.

Recommendation 6. We recommended that the Facility Director ensures the mental
health standard operating procedure is updated to incorporate all procedures available
for management of a mental health emergency at the Community Based Outpatient
Clinic.

Recommendation 7. We recommended that the Facility Director ensures that
Community Based Outpatient Clinic panic alarms are functional.

Recommendation 8. We recommended that the Facility Director ensures that a pain
management policy is implemented.




VA Office of Inspector General                                                                 10
                                 Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC


Recommendation 9. We recommended that the Facility Director ensures that the
quality of entries in the electronic health record is reviewed at least quarterly.




VA Office of Inspector General                                                              11
                                       Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC

                                                                                        Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs Memorandum


       Date: June 11, 2014

      From: Director, VA Southeast Network (10N7)

   Subject: Healthcare Inspection – Quality of Care and Staff Safety
            Concerns Huntsville Community Based Outpatient Clinic,
            Huntsville, AL

          To: Director, Kansas City Office of Healthcare Inspections (54KC)

               Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)



           1. I have reviewed the OIG Draft Report and the facility’s responses. I	
              am assured that the corrective actions are underway with identified
              target completion dates. The VISN office will provide support and
              oversight to ensure that these actions are completed and
              sustained.

           2. If you have questions or need additional information, please contact
              Robin Hindsman, QMO 678-924-5700.



               (original signed by:)

               Charles E. Sepich, FACHE




VA Office of Inspector General                                                                    12
                                       Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC

                                                                                        Appendix B
                          Facility Director Comments


               Department of 

               Veterans Affairs Memorandum 



       Date: June 9, 2014

      From: Director, Birmingham VA Medical Center (521/00)

   Subject: Healthcare Inspection – Quality of Care and Staff Safety
            Concerns Huntsville Community Based Outpatient Clinic,
            Huntsville, AL

          To: Director, VA Southeast Network (10N7)



           1. The Birmingham VA Medical Center has reviewed the OIG Report
              and has provided comments to the recommendations. Corrective
              actions are underway with identified target completion dates.

           2. If you have questions or need additional information, please contact
              my office at (205) 933-4515.


               (original signed by:)

               Thomas C. Smith, III, FACHE




VA Office of Inspector General                                                                    13
                                  Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensures that
documentation of treatment with opioid medications meets Veterans Health
Administration requirements.

Concur

Facility Action: Quarterly reviews will be conducted by Primary Care and reported
through the Health Systems Council.

Target date for completion: October 1, 2014

Recommendation 2. We recommended that the Facility Director ensures that staff
consistently document responses to abnormal test results.

Concur

Facility Action: Re-educate staff on required responses and documentation of abnormal
test results as referenced in Medical Center Memorandum 11-11, Ordering and
Reporting Test Results.       Primary Care management to send Medical Center
Memorandum 11-11 to all staff via email and incorporate education in staff meetings at
all locations. Monthly audit results will be reported through the Ongoing Professional
Practice Evaluation process through the Health System Council to the Facility
Leadership Board.

Target date for completion: June 30, 2014

Recommendation 3. We recommended that the Facility Director ensures that patients
are notified of test results within the defined timeframe and that notification is
documented in accordance with Veterans Health Administration requirements.

Concur

Facility Action: Re-educate staff regarding notification of test results as outlined in
Medical Center Memorandum 11-11, Ordering and Reporting Test Results. Primary
Care management to send Medical Center Memorandum 11-11 to all staff via email and
incorporate education in staff meetings at all locations. Monthly audit results will be
reported through the Ongoing Professional Practice Evaluation process through the
Health System Council to the Facility Leadership Board.

Target date for completion: June 30, 2014



VA Office of Inspector General                                                               14
                                  Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC



Recommendation 4. We recommended that the Facility Director ensures that staff
adhere to the facility policy for the management of non-VA medical records.

Concur

Facility Action: Re-educate staff on the facility policy Medical Center Memorandum
136-04, Document Scanning/Document Removal in the Computerized Patient Record
System. Primary Care management to send Medical Center Memorandum 136-04 to all
staff via email and incorporate education in staff meetings at all locations.

Target date for completion: June 30, 2014

Recommendation 5. We recommended that the Facility Director ensures that
Community Based Outpatient Clinic provider privileges are in accordance with Veterans
Health Administration requirements.

Concur

Facility Action: Reviewed privileges of provider in question. Provider is Board Certified
in Family Practice Medicine and the procedure in question is included in the core
privileges for Board Certified Family Practice providers. Core privileges for Board
Certified Family Practice Medicine providers will be updated to include a listing of the
approved procedures.

Target date for completion: August 30, 2014

Recommendation 6. We recommended that the Facility Director ensures the mental
health standard operating procedure is updated to incorporate all procedures available
for management of a mental health emergency at the Community Based Outpatient
Clinic.

Concur

Facility Action: The Mental Health Standard Operating Procedure was updated to
incorporate all procedures available for management of a mental health emergency at
the Community Based Outpatient Clinic. Staff were notified and educated via email on
June 3, 2014.

Target date for completion: June 3, 2014

Recommendation 7. We recommended that the Facility Director ensures that
Community Based Outpatient Clinic panic alarms are functional.

Concur

Facility Action: All panic alarms in the Community Based Outpatient Clinics are
currently operational. Monthly testing is occurring via Lynx software and by the
computer end user. This process is being overseen by the VA Police Physical Security


VA Office of Inspector General                                                               15
                                  Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC



Analysis. On June 3, 2014, Chief of Police confirmed that all panic alarms were
operational.

Target date for completion: June 3, 2014

Recommendation 8. We recommended that the Facility Director ensures that a pain
management policy is implemented.

Concur

Facility Action: The Pain Policy has been updated and is currently being routed through
the Executive Leadership Team for approval.

Target date for completion: June 13, 2014

Recommendation 9. We recommended that the Facility Director ensures that the
quality of entries in the electronic health record is reviewed at least quarterly.

Concur

Facility Action: Task group being developed through Business Management Service to
implement quarterly reviews of the Computerized Patient Record System. Quarterly
audits will be coordinated by Business Management Service and reported through
Medical Records Committee.

Target date for completion: October 30, 2014




VA Office of Inspector General                                                               16
                                      Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC

                                                                                       Appendix C
                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Larry Selzler, MSPT, Team Leader
                         Stephanie Hensel, RN
                         Jerome Herbers, MD
                         James Seitz, RN, MBA




VA Office of Inspector General                                                                   17
                                   Quality of Care and Staff Safety Concerns, Huntsville, AL CBOC

                                                                                    Appendix D
                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Birmingham VA Medical Center (521/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Sessions, Richard C. Shelby
U.S. House of Representatives: Spencer Bachus, Mo Brooks, Terri A. Sewell


This report is available on our web site at www.va.gov/oig.




VA Office of Inspector General                                                                18
